United States v. Burgos-Coronado, 970 F.3d 613 (2020)

970 F.3d 613
United States Court of Appeals, Fifth Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Pavel Isaac BURGOS-CORONADO, also known as
Pavel Isaac Burgos Coronado, Defendant-Appellant,
United States of America, Plaintiff-Appellee,
v.
Javier Alejandro Moline-Borroto,
also known as Javier Alejandro
Moline Borroto, Defendant-Appellant,
United States of America, Plaintiff-Appellee,
v.
Valentina Sybreg Castro-Balza,
also known as Valentina Sybreg
Castro Balza, Defendant-Appellant.
No. 19-60294, No. 19-60295, No. 19-60380
|
FILED August 18, 2020
Synopsis
Background: Defendants were charged with various fraud
related counts. Defendants moved to suppress. The United
States District Court for the Northern District of Mississippi,
Debra M. Brown, J., 353 F.Supp.3d 527, denied the motion,
and defendants appealed.

USDC No. 1:18-CR-70-4, USDC No. 1:18-CR-70-7, Debra
Marie Brown, U.S. District Judge
Attorneys and Law Firms
Paul David Roberts, Assistant U.S. Attorney, U.S. Attorney's
Office, Northern District of Mississippi, Oxford, MS, for
Plaintiff-Appellee (Case no. 19-60294)
Merrill K. Nordstrom, Federal Public Defender's Office,
Northern District of Mississippi, Oxford, MS, for DefendantAppellant
Michael Scott Davis, Federal Public Defender's Office,
Northern District of Mississippi, Oxford, MS, for DefendantAppellant (Case no. 19-60295)
William Farley Travis, Attorney, Travis Law Offices,
P.L.L.C., Southaven, MS, for Defendant-Appellant (Case no.
19-60380)
Before Clement, Southwick, and Higginson, Circuit Judges.
Opinion
Leslie H. Southwick, Circuit Judge:
Defendants challenge the denial of their motion to suppress
evidence, arguing police officers did not have reasonable
suspicion that would allow prolonging their stop at a highway
safety checkpoint. We AFFIRM.

FACTUAL AND PROCEDURAL BACKGROUND
Holdings: The Court of Appeals, Southwick, Circuit Judge,
held that:
suspicionless automobile checkpoint was permissible for
purposes of the Fourth Amendment, and
troopers had the minimum level of objective justification to
support reasonable suspicion of criminal activity needed to
prolong traffic stop and eventually search the vehicle.
Affirmed.
Procedural Posture(s): Appellate Review; Pre-Trial Hearing
Motion.
*616 Appeal from the United States District Court for the
Northern District of Mississippi, USDC No. 1:18-CR-70-3,

Around midnight on May 18, 2018, State Troopers Gregory
Bell, Matthew Minga, Andrew Beaver, and Steven Jones set
up a “driver's safety checkpoint” on a highway approximately
eight miles east of Starkville, Mississippi. The checkpoint
was intended for the troopers to check for driver's licenses,
insurance, seat belt usage, and other safety matters. After
approximately 15 to 20 minutes of light traffic, the troopers
stopped a Toyota with a Florida license plate traveling north,
occupied by the three defendants — Pavel Isaac BurgosCoronado, Javier Alejandro Moline-Borroto, and Valentina
Sybreg Castro-Balza. Trooper Minga approached the Toyota
and made contact with the occupants. Trooper Bell, who was
observing and overheard Trooper Minga's exchange with the
Toyota occupants, identified Moline-Borroto as the driver,
Burgos-Coronado in the rear driver-side seat, and CastroBalza in the rear passenger-side seat. At a September 7, 2018

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Burgos-Coronado, 970 F.3d 613 (2020)

hearing on the defendants’ motion to suppress, Trooper Bell
described the exchange with the Toyota occupants:

Castro-Balza's Venezuelan passport did not have a stamp
indicating her entry into the United States.

Trooper Minga asked the driver for his driver's license and
proof of insurance. Mr. Borroto provided him a Florida
temporary issue driver's license. And, at that time, I believe
he said it was a rental vehicle. Trooper Minga asked
*617 him, then, who he had in the rear seat and who his
passengers were.

Trooper Bell also testified that because of the seating
arrangement within the Toyota — male driver, empty
passenger seat, male occupant in rear driver-side seat, and
female occupant in rear passenger-side seat — he had a
concern about the trip being abnormal “[f]rom a human
trafficking aspect.”

Mr. Borroto said something in Spanish to them, rolled
down the back window; and Mr. Pavel [Burgos-Coronado]
provided another temporary Florida driver's license; and
Ms. Balza provided a Venezuela passport.
Bell subsequently answered some questions:
Q.... [W]hen Trooper Minga asked about the other persons
in the car, were you able to hear that?
A. Yes, sir.
Q. And what happened? How was the conversation
between the passengers in the backseat?
A. It was in Spanish between them.
...
Q. Okay. And there was a conversation, then, between the
people in the car or Trooper Minga with the persons in the
backseat?
A. No. The driver of the vehicle with the persons in the
backseat.
Q. And were you able to listen and determine whether it
was in English or Spanish?
A. It was Spanish.
Q. Did you ever attempt to speak to the persons in the
backseat of the Toyota?
A. I tried to, but we didn't — outside of basic conversation,
Mr. [Moline-]Borroto pretty much translated anything we
asked.
At the same hearing, Bell also testified that he started
questioning Moline-Borroto only after the passengers gave
Trooper Minga their identifications. Upon inspecting the
Toyota occupants’ identifications, Trooper Bell noticed that

About 25 to 30 seconds after the Toyota was stopped, a
Volkswagen arrived at the checkpoint. Trooper Jones, who
had been near Troopers Minga and Bell when the stop
of the Toyota took place and had overheard discussion
of a Venezuelan passport, talked to the occupants of the
Volkswagen and noticed that it too had a Florida license
plate, and he noted that the driver of the Volkswagen, Daniel
Pena-Morales, also had a Venezuelan passport. When Trooper
Jones informed Trooper Bell of the apparent connections
between the two vehicles, Trooper Bell asked the driver
of the Toyota, Moline-Borroto, if he was traveling with
anyone. After hesitation, Moline-Borroto responded that he
was traveling with the individuals in the Volkswagen. Trooper
Jones asked the driver of the Volkswagen, Pena-Morales,
the same question, to which Pena-Morales responded that
he was not traveling with anyone. According to Trooper
Bell's testimony at the suppression hearing, these conflicting
accounts put him on “high alert.” Ultimately, the troopers
searched the Toyota and the Volkswagen and found evidence
of credit card skimming in both.
A grand jury charged Burgos-Coronado, Moline-Borroto,
and Castro-Balza — the Toyota occupants — as well as
the Volkswagen occupants, with (1) conspiracy to commit
offenses against the United States which affected interstate
commerce; (2) possession with intent to defraud of an access
device card encoder, software, and computer; (3) possession
with intent to defraud of credit card skimming equipment;
*618 (4) possession with intent to defraud of 15 or more
unauthorized access devices; and (5) using or attempting to
use with intent to defraud more than one unauthorized access
device to obtain goods, services, and money aggregating in
excess of $1,000.
The defendants from both vehicles moved to suppress the
evidence based on an unconstitutional search and seizure.
The district court denied the motions. Pursuant to plea
agreements, Burgos-Coronado, Moline-Borroto, and CastroBalza entered conditional guilty pleas, reserving the right

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Burgos-Coronado, 970 F.3d 613 (2020)

to appeal the denial of their motions to suppress. They
were sentenced and entered separate notices of appeal. We
granted an unopposed motion to consolidate these three
defendants’ appeals for briefing and oral argument purposes.
We denied the Government's opposed motion to consolidate
the Toyota occupants’ appeals with similar appeals filed by
the Volkswagen occupants. On January 29, 2020, we affirmed
the district court's denial of the motions to suppress with
respect to the Volkswagen occupants. See United States v.
Pena-Morales, 791 F. App'x 499 (5th Cir. 2020). We now
AFFIRM in the companion cases.

DISCUSSION
Our review of a denial of a motion to suppress evidence
requires us to examine factual findings for clear error but to
consider conclusions of law de novo; a determination about
the existence of reasonable suspicion is a legal conclusion.
United States v. Freeman, 914 F.3d 337, 341 (5th Cir. 2019).
“We view the evidence in the light most favorable to the
party prevailing below.” Id. We will uphold the district court's
ruling if there is any reasonable view of the evidence to
support it. See id. at 342.
“A checkpoint-type stop of an automobile is a seizure
constrained by the Fourth Amendment.” United States
v. Green, 293 F.3d 855, 857–58 (5th Cir. 2002). While
suspicionless seizures are ordinarily unreasonable, and thus
Fourth Amendment violations, certain types of automobile
checkpoint stops have been excepted from this general
rule. Id. at 858. The Supreme Court has suggested that
such checkpoints designed to check a driver's license and
registration are permissible. See id. (citing
Delaware v.
Prouse, 440 U.S. 648, 663, 99 S.Ct. 1391, 59 L.Ed.2d
660 (1979)). We have explained that “it is a legitimate,
programmatic purpose that justifies a checkpoint stop made
without any suspicion.”
United States v. MachucaBarrera, 261 F.3d 425, 433 (5th Cir. 2001). We examine the
available evidence to determine the “primary purpose” of a
checkpoint; “a program driven by an impermissible purpose
may be proscribed while a program impelled by licit purposes
is permitted.” City of Indianapolis v. Edmond, 531 U.S. 32,
47, 121 S.Ct. 447, 148 L.Ed.2d 333 (2000). “[T]he primary
purpose of a checkpoint is a finding of fact reviewed for clear
error.” Green, 293 F.3d at 859.

Though the evidence of the programmatic purpose of the
checkpoint here was scant, Trooper Bell testified that the
troopers were stopping every car that passed to check
for driver's licenses, insurance, seat belt usage, and other
“safety aspects.” The district court's finding “that the purpose
of the checkpoint” was to “check[ ] licenses, insurance,
and seatbelts” was not clearly erroneous. Seizures carried
out at “general crime control” checkpoints are justified
only if accompanied by “some quantum of individualized
suspicion.”
Edmond, 531 U.S. at 47, 121 S.Ct. 447. In
contrast, the “suspicionless” checkpoint here was permissible
because it served a legitimate programmatic purpose closely
related to the necessity of ensuring roadway safety and
“problem[s] peculiar to *619 the dangers presented by
vehicles.” Green, 293 F.3d at 858.
Inquiries relating to safety, much like those at a regular
noncheckpoint traffic stop, might include checking the
driver's license of the driver, determining whether there
are outstanding traffic-related warrants against the driver,
and inspecting an automobile's registration and proof of
insurance, i.e., inquiries “ensuring that vehicles on the road
are operated safely and responsibly.”
Rodriguez v. United
States, 575 U.S. 348, 355, 135 S.Ct. 1609, 191 L.Ed.2d
492 (2015). Seizures carried out pursuant to that purpose
are permissible, at least at their inception, under the Fourth
Amendment. See Green, 293 F.3d at 858.
In the context of immigration checkpoints, we have held that
“the permissible duration of the stop is limited to the time
reasonably necessary to complete a brief investigation of the
matter within the scope of the stop.”
Machuca-Barrera,
261 F.3d at 433. The primary purpose of the checkpoint
stop here was not related to immigration, but the inquiry
remains the same. “The key is the rule that a stop may
not exceed its permissible duration unless the officer has
reasonable suspicion.”
Id. at 434. This means that if
the initial inquiries generate reasonable suspicion of other
criminal activity, even if not related to the primary purpose of
the checkpoint, the stop may be lengthened to accommodate
the new justification.
Id. It is thus permissible for an
officer to prolong a detention until the officer has dispelled
the newly-formed suspicion. United States v. Glenn, 931 F.3d
424, 429 (5th Cir.), cert. denied, ––– U.S. ––––, 140 S. Ct.
563, 205 L.Ed.2d 365 (2019).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Burgos-Coronado, 970 F.3d 613 (2020)

A reasonable suspicion consists of “specific and articulable
facts ... taken together with rational inferences from those
facts” that reasonably suggest “criminal activity [is] afoot.”
United States v. Escamilla, 852 F.3d 474, 480–81 (5th
Cir. 2017) (alteration in original) (quoting
Terry v. Ohio,
392 U.S. 1, 21, 30, 88 S.Ct. 1868, 20 L.Ed.2d 889 (1968)).
Although reasonable suspicion cannot consist simply of
an officer's hunch that an individual is engaged in illegal
activity, only “some minimal level of objective justification”
is required. United States v. Broca-Martinez, 855 F.3d 675,
678 (5th Cir. 2017) (quotation marks omitted). In our review,
we must consider the “totality of the circumstances” that
confronted the law enforcement officer.
United States v.
Arvizu, 534 U.S. 266, 273, 122 S.Ct. 744, 151 L.Ed.2d 740
(2002) (quoting
United States v. Sokolow, 490 U.S. 1, 7,
109 S.Ct. 1581, 104 L.Ed.2d 1 (1989)). Observations that
by themselves are susceptible to innocent explanations, when
taken together, can still amount to reasonable suspicion. Id.
at 274–75, 122 S.Ct. 744. “In considering whether officers
reasonably suspect someone of criminal activity, we defer to
their law enforcement experience, recognizing that trained
officers may draw inferences from certain facts ‘that might
well elude an untrained person.’ ”

Escamilla, 852 F.3d at

481 (quoting
United States v. Cortez, 449 U.S. 411, 418,
101 S.Ct. 690, 66 L.Ed.2d 621 (1981)).
Our inquiry is thus whether reasonable suspicion of criminal
activity arose before the time reasonably necessary to satisfy
the purpose of this stop had expired. In our inquiry, we do
not expand on the arguments made by the defendants in the
district court. The motion to suppress jointly filed by these
defendants contains the following assertions about the events
after Moline-Borroto stopped the Toyota at the checkpoint.
“The officer then asked for his identification and registration
of the vehicle. Mr. Moline-Borroto handed *620 a valid
Florida's driver license to the officer and the rental agreement
for the car. The passengers in the vehicle also produced valid
identification. At this point, the vehicle should have been
waved through the stop and allowed to proceed.”
Making the temporal point even clearer, at the suppression
hearing, the district court judge asked counsel for each
of the Toyota occupants to state exactly when the seizure
became illegal. Counsel for Moline-Borroto responded that
the seizure became illegal “[t]he moment that the officer sees
the passengers with seat belts on, and that the driver has

given him a license that seems to be valid and has said I'm
going to Memphis to see my uncle, at that point, continued
questioning I do not think was justified under the law.” The
statement about a trip to Memphis was in response to Trooper
Bell's initial questioning. Counsel for Burgos-Coronado said
she would “echo everything” in that answer, and counsel
for Castro-Balza said he “would simply adopt the remarks”
already made.
The relevant point identified by counsel was after those in the
backseat of the Toyota gave their identifications to Trooper
Minga. Thus, defendants did not contest the validity of any
of Trooper Minga's earlier actions. At the time Trooper Bell
began questioning Moline-Borroto, the record shows that the
following facts were known to the troopers: (1) the time
was soon after midnight, (2) the Toyota had an out-of-state
license plate, (3) the driver of the Toyota had a temporary
driver's license, (4) that temporary driver's license was also
out-of-state, (5) the driver had not yet provided registration
or proof of insurance but claimed the vehicle was a rental,
(6) the driver was a man, the passenger seat was unoccupied,
and there was man and woman occupying the rear seats, (7)
the driver began translating to the passengers in Spanish, (8)
the male passenger produced another out-of-state temporary
driver's license, and (9) the woman passenger produced a
Venezuelan passport with no entry stamp.
We must view the evidence in the light most favorable to the
party that prevailed below, i.e., the prosecution.
United
States v. Pack, 612 F.3d 341, 347 (5th Cir. 2010). In doing so,
we recognize that each of the articulated facts is consistent
with an innocent explanation. That, though, is not enough
to rule out reasonable suspicion. See
Arvizu, 534 U.S. at
274–75, 122 S.Ct. 744. The collection of information was that
a female passenger's passport lacked an entry stamp, which
might reasonably suggest that she was in the country illegally.
Further, the abnormal seating arrangement — abnormal
because the officer believed multiple adults do not usually
choose to sit in the back when the passenger seat is empty
— when combined with the unstamped passport and the late
hour, might suggest that the woman was being held against
her will.
Based on these facts, the troopers had the “minimum level
of objective justification” to support reasonable suspicion of
criminal activity — namely, human trafficking— sufficient
to justify prolonging the stop by inquiring further about
where the Toyota occupants were going. During that justified

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Burgos-Coronado, 970 F.3d 613 (2020)

extension, more facts were discovered supporting reasonable
suspicion and, eventually, supporting a search.
AFFIRMED.

All Citations
970 F.3d 613

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

